Record Press Inc., 229 West 36th Street, New York, N.Y. 10018•
Tel No.: (212) 619-4949• Fax No. (212) 608-3141

80325
STATE OF NEW YORK,
SS:

AFFIDAVIT OF SERVICE

COUNTY OF NEW YORK
Howard Daniels being duly sworn, deposes and says that deponent is not party to the action, and is
over 18 years of age.
That on the 25th day of September 2019 deponent served 3 copies of the within
PETITION FOR A WRIT OF CERTIORARI

upon the attorneys at the addresses below, and by the following method:
BY FEDERAL EXPRESS NEXT BUSINESS DAY DELIVERYAND ELECTRONIC MAIL

M. Stephen Pitt
S. Chad Meredith
Matthew F. Kuhn
Office of the Governor
700 Capitol Avenue, Suite 101
Frankfort, KY 40601
502-564-2611
steve.pitt@ky.gov
chad.meredith@ky.gov
matt.kuhn@ky.gov

Catherine York
Deputy General Counsel
Cabinet for Health and Family Services
Office of Legal Services
275 East Main Street, 5W-B
Frankfort, KY 40821
502-584-7905
catherine.york@ky.gov

I, Howard Daniels, declare under penalty of perjury under the laws of the United States of America
that the foregoing is true and correct, executed on September 25, 2019, pursuant to Supreme
Court Rule 29.5[c]. All parties required to

be6X;~rve/iJ. ~

-

Howard Daniels

Sworn to me this

September 25, 2019
RAMI O A. HONEYWELL
Notary blic, State of New York

Case Name: EMW Women's Surgical Center v.
Meier

. 01H06118731

Docket/Case No.

